September 2009
Report No. AUD-09-024


Material Loss Review of FirstBank
Financial Services, McDonough, Georgia




             AUDIT REPORT
                                                                 Report No. AUD-09-024                                                        September 2009

                                                                 Material Loss Review of FirstBank Financial
                                                                 Services, McDonough, Georgia
         Federal Deposit Insurance Corporation
                                                                 Audit Results
Why We Did The Audit
                                                                 Causes of Failure and Material Loss - FirstBank failed due to bank management’s pursuit of
On February 6, 2009, the Georgia Department                      rapid growth in CRE/ADC lending concentrated in the Atlanta, Georgia, market. FirstBank
of Banking and Finance (GDBF) closed                             funded the CRE/ADC lending primarily with more volatile wholesale funding, including
FirstBank Financial Services (FirstBank) and                     brokered deposits and Federal Home Loan Bank (FHLB) advances, which deviated from the
named the FDIC as receiver. On March 4,                          bank’s approved business plan. This business strategy, coupled with weak risk management
2009, the FDIC notified the Office of Inspector                  controls, left the bank unprepared to handle the effect of the significant downturn in the bank’s
General (OIG) that FirstBank’s total assets at                   market.
closing were $325 million and the material loss
to the Deposit Insurance Fund (DIF) was                          FirstBank’s BOD and management did not ensure that loan underwriting and credit
                                                                 administration practices were adequate and failed to recognize problem loans in a timely
$112 million. As required by section 38(k) of
                                                                 manner. As the market declined, FirstBank experienced increasing levels of adversely
the Federal Deposit Insurance (FDI) Act, the
                                                                 classified assets and associated losses and significant increases in the allowance for loan and
OIG conducted a material loss review of the                      lease losses. Further, FirstBank did not have a definitive plan to reduce the bank’s reliance on
failure of FirstBank.                                            wholesale funding sources and had not developed a comprehensive contingency liquidity plan.
                                                                 As losses in the loan portfolio increased, the bank’s earnings and capital eroded, and liquidity
The audit objectives were to (1) determine the                   became strained, ultimately leading to the failure of the bank and an initial estimated loss to the
causes of the financial institution’s failure and                DIF of $112 million.
resulting material loss to the DIF and
(2) evaluate the FDIC’s supervision of the                       Assessment of FDIC Supervision and Implementation of PCA - The FDIC provided
institution, including implementation of the                     ongoing supervision of FirstBank and identified key concerns for attention by bank
Prompt Corrective Action (PCA) provisions of                     management, including the problems that led to the bank’s failure. In 2008, the FDIC and
section 38.                                                      GDBF pursued enforcement actions based on the bank’s significant financial decline noted at
                                                                 the December 2007 examination and March 2008 visitation. FirstBank adopted a bank board
Background                                                       resolution (BBR) in June 2008, and the FDIC and GDBF issued a Cease and Desist Order in
                                                                 October 2008. The FDIC notified the bank of its PCA status in a timely manner, including
                                                                 when FirstBank fell to a significantly undercapitalized level as of November 30, 2008.
FirstBank was a state-chartered nonmember
financial institution, established by the GDBF                   However, the FDIC could have provided additional and timelier supervisory attention for
and insured by the FDIC effective January 28,                    FirstBank. The examinations of FirstBank could have more fully considered the risks
2002. FirstBank, which was headquartered in                      associated with the rapid growth of the de novo institution with concentrations in CRE/ADC
McDonough, Georgia, had two branches in                          lending, funded with wholesale funding sources, and weak risk management controls.
Henry County, Georgia, and one branch in                         Although the bank’s financial condition deteriorated significantly between the May 2006 and
Clayton County, Georgia. FirstBank was                           December 2007 examinations, the risk and deficiencies associated with the ADC concentration
wholly owned by FirstBank Financial Services,                    had been present throughout the bank’s existence. Supervisory action was not taken until 2008
Incorporated, a one-bank holding company,                        when there were significant and quantifiable losses in the bank’s loan portfolio. Consideration
which was also located in McDonough,                             of the associated risk that the FDIC and GDBF examinations identified could have resulted in
Georgia.                                                         elevated supervisory concern and action to address FirstBank’s problems earlier.

As a de novo bank for its first 3 years in                       This report presents the FDIC OIG’s analysis of FirstBank’s failure and the FDIC’s efforts to
operation, FirstBank was subject to additional                   ensure FirstBank’s management operated the bank in a safe and sound manner. We are not
supervisory oversight and regulatory controls.                   making recommendations. Instead, as major causes, trends, and common characteristics of
In addition, FirstBank provided commercial                       financial institution failures are identified in our reviews, we will communicate those to
                                                                 management for its consideration. As resources allow, we may also conduct more in-depth
banking activities within its marketplace,
                                                                 reviews of specific aspects of the FDIC’s supervision program and make recommendations, as
specializing in commercial lending, with a
                                                                 warranted.
concentration in commercial real estate (CRE),
including residential acquisition, development,
and construction (ADC) loans funded by                           Management Response
wholesale sources.
                                                                 The Director, Division of Supervision and Consumer Protection (DSC), provided a written
                                                                 response to the draft report. DSC reiterated our findings that FirstBank failed primarily due to
FDIC guidance issued to financial institutions
                                                                 management’s pursuit of rapid growth in CRE and ADC loans, which were concentrated in
describes a risk management framework to                         suburban Atlanta, Georgia, and funded with higher-cost, volatile wholesale sources. DSC
effectively identify, measure, monitor, and                      stated that this business strategy, coupled with the economic downturn that accelerated in
control CRE concentration risk. That                             2007, resulted in loan losses depleting capital and earnings and impairing liquidity to the
framework includes effective oversight by bank                   magnitude of which the institution was unable to recover and ultimately failed. DSC
management, including the board of directors                     acknowledged that FirstBank’s practice of highly concentrated ADC lending warranted earlier
(BOD) and senior executives, and sound loan                      intervention before the bank’s financial condition deteriorated and stated that it has issued
underwriting, administration, and portfolio                      additional guidance to address CRE/ADC concentrations and volatile non-core funding.
management practices.
 To view the full report, go to www.fdicig.gov/2009reports.asp
Contents                                                            Page


BACKGROUND                                                            2
 Downturn in the Local Economy                                        3

CAUSES OF FAILURE AND MATERIAL LOSS                                   5
 Rapid Asset Growth and Concentration in ADC Loans                    5
 Deficient Underwriting and Credit Administration                     7
 Untimely Recognition of Problem Assets and Inadequate ALLL           8
 Ineffective BOD and Bank Management                                 11
  Inadequate Planning to Address Overall Deterioration               12
 Inadequate Loan Policy                                              12
 Heavy Reliance on Non-Core Funding                                  13
   Contingency Liquidity Plan                                        14

ASSESSMENT OF FDIC SUPERVISION                                       15
 Historical Snapshot of FDIC Supervision                             15
  CRE Review                                                         17
 OIG Assessment of FDIC Supervision                                  18
  Identification of Risk                                             19
  Off-site Monitoring                                                20
  Non-Core Funding                                                   21
  Timeliness of Supervisory and Enforcement Action                   22
 Conclusion                                                          23

IMPLEMENTATION OF PCA                                                23

CORPORATION COMMENTS                                                 26

APPENDICES
  1. OBJECTIVES, SCOPE, AND METHODOLOGY                              27
  2. GLOSSARY OF TERMS                                               29
  3. CHRONOLOGY OF SIGNIFICANT EVENTS                                30
  4. CORPORATION COMMENTS                                            31
  5. ACRONYMS USED IN THE REPORT                                     32

TABLES
  1.   Financial Condition of FirstBank                               3
  2.   Indicators of an Economic Downturn in Georgia                  4
  3.   FirstBank’s Asset Growth                                       6
  4.   FirstBank’s CRE and ADC Concentration Levels                   6
  5.   FirstBank’s Adversely Classified Assets                       10
  6.   FirstBank’s PLLL and ALLL                                     10
  7.   FirstBank’s Net Non-Core Dependence Ratio Compared to Peer    13
  8.   FirstBank’s CAMELS Component and Composite Ratings            16
  9.   FDIC’s Off-site Monitoring Results                            21
 10.   Capital Injections for FirstBank                              24
 11.   FirstBank’s Capital Ratios Compared to Peer                   24
    Federal Deposit Insurance Corporation                                                             Office of Audits
    3501 Fairfax Drive, Arlington, VA 22226                                              Office of Inspector General


DATE:                                         September 3, 2009

MEMORANDUM TO:                                Sandra L. Thompson, Director
                                              Division of Supervision and Consumer Protection


                                              /Signed/
FROM:                                         Russell A. Rau
                                              Assistant Inspector General for Audits

SUBJECT:                                      Material Loss Review of FirstBank Financial Services,
                                              McDonough, Georgia (Report No. AUD-09-024)


As required by Section 38(k) of the Federal Deposit Insurance Act (FDI Act), the Office
of Inspector General (OIG) conducted a material loss1 review of the failure of FirstBank
Financial Services (FirstBank), McDonough, Georgia. On February 6, 2009, the Georgia
Department of Banking and Finance (GDBF) closed the institution and named the FDIC
as receiver. On March 4, 2009, the FDIC notified the OIG that FirstBank’s total assets at
closing were $325 million and the material loss to the Deposit Insurance Fund (DIF) was
$112 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency which
reviews the agency’s supervision of the institution, including the agency’s implementation
of FDI Act section 38, Prompt Corrective Action (PCA); ascertains why the institution’s
problems resulted in a material loss to the DIF; and makes recommendations to prevent
future losses.

The audit objectives were to: (1) determine the causes of the financial institution’s failure
and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision2 of the
institution, including implementation of the PCA provisions of section 38 of the FDI Act.
Appendix 1 contains details on our objectives, scope, and methodology; Appendix 2
contains a glossary of terms; Appendix 3 contains a chronology of significant events; and
Appendix 5 contains a list of acronyms used in the report.


1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices, including internal control systems; and compliance with applicable laws and
regulations; and (2) issues related guidance to institutions and examiners.
    This report presents the FDIC OIG’s analysis of FirstBank’s failure and the FDIC’s efforts
    to ensure FirstBank’s management operated the bank in a safe and sound manner. We are
    not making recommendations. Instead, as major causes, trends, and common
    characteristics of financial institution failures are identified in our reviews, we will
    communicate those to management for its consideration. As resources allow, we may also
    conduct more in-depth reviews of specific aspects of the FDIC’s supervision program and
    make recommendations, as warranted.


BACKGROUND

    FirstBank was a state-chartered nonmember financial institution, established by the GDBF
    and insured by the FDIC effective January 28, 2002. The bank was originally chartered
    under the name of First Bank of Henry County but officially changed its name to
    FirstBank Financial Services on January 1, 2007. FirstBank, which was headquartered in
    McDonough, Georgia, had two branches in Henry County, Georgia, and one branch in
    Clayton County, Georgia. FirstBank was wholly owned by FirstBank Financial Services,
    Incorporated,3 a one-bank holding company, which was also located in McDonough,
    Georgia. FirstBank provided commercial banking activities within its marketplace,
    specializing in commercial lending, with a concentration in commercial real estate (CRE),
    including residential acquisition, development, and construction (ADC) loans funded by
    wholesale sources, including brokered deposits and Federal Home Loan Bank (FHLB)
    advances.

    As a de novo bank4 for its first 3 years in operation, FirstBank was subject to additional
    supervisory oversight and regulatory controls, such as adherence to conditions5 established
    by the GDBF, which granted FirstBank’s charter, and by the FDIC, which approved the
    bank’s application for deposit insurance. Those conditions included, but were not limited
    to, operating within the parameters of the bank’s business plan and obtaining annual
    financial statement audits. In addition, as a de novo bank, FirstBank was subject to
    examinations during the first 3 years conducted on a 12-month schedule. The FDIC has
    recognized that de novo institutions can pose additional risk to the DIF and may exhibit
    certain risk factors, including rapid asset growth and CRE/ADC concentrations funded by
    wholesale sources, which require elevated supervisory concern.




    3
      On February 1, 2005, FirstBank Financial Services, Incorporated, became a bank holding company
    pursuant to section 3(a)(l) of the Bank Holding Company Act, based on the December 29, 2004 approval
    provided by the Federal Reserve Bank of Atlanta (Federal Reserve). The Federal Reserve conducted a
    visitation of the holding company on April 3, 2006.
    4
      At the time FirstBank was chartered and received deposit insurance, the designation of a “de novo”
    institution indicated newly established banks that were in their first 3 years of operation.
    5
      Along with the submission of initial applications for deposit insurance, proposed financial institutions are
    expected to submit business plans that include information on a bank’s business strategy and financial data
    for a 3-year period. The FDIC can impose standard conditions and may include nonstandard conditions, as
    deemed appropriate, in the Final Order for Deposit Insurance.


                                                           2
      Details on FirstBank’s financial condition, as of December 31, 2008, and for the
      4 preceding calendar years follow in Table 1.

      Table 1: Financial Condition of FirstBank
                                                                     31-Dec-08     31-Dec-07      31-Dec-06      31-Dec-05      31-Dec-04
       Total Assets ($000s)                                           $317,237      $345,161       $276,821       $222,465       $176,823
       Total Deposits ($000)                                          $279,308      $278,004       $224,313       $174,336       $131,363
       Total Loans ($000s)                                            $218,962      $256,866       $210,397       $168,674       $133,781
       Net Loan and Leases Growth Rate                                (20.23)%        20.06%         24.74%         26.04%        107.29%
       Net Income (Loss) ($000)                                       ($25,172)        ($891)         $2,677         $2,574         $1,804
       Tier 1 Leverage Capital Ratio                                       2.31          8.99          10.26          11.79          13.96
       Loan Mix (% of Loans)
       All Loans Secured by Real Estate                                 91.19%        90.81%         88.41%         88.57%         88.78%
        Construction and Development                                    67.81%        72.89%         66.94%         61.05%         47.00%
        CRE - Nonfarm/nonresidential                                    12.87%        13.34%         17.52%         22.65%         39.15%
        1-4 Family Residential – excluding Home Equity Lines             9.70%         3.69%          2.71%          3.77%          1.84%
        of Credit
        Home Equity Lines of Credit                                       .74%           .85%         1.14%          1.02%           .79%
       Commercial and Industrial Loans                                   8.01%          8.22%        10.37%         10.38%          9.71%
       Funding
       Total Core Deposits ($000)                                      $247,860      $239,700       $97,081        $63,829        $46,288
       Federal Home Loan Bank Advances ($000)                           $28,000       $34,000       $22,000        $22,000        $22,000
       Brokered Deposits ($000)                                        $150,184      $127,150       $85,786        $79,873        $62,876
       Net Non-Core Dependence Ratio                                    69.02%        59.90%        54.41%         59.61%         60.33%
       Loans/Deposits                                                   71.32%        89.83%        92.73%         95.65%        100.72%
       Core Deposits/Average Assets                                     78.13%        69.45%        35.07%         28.69%         26.18%
       FHLB/Average Assets                                               9.49%         8.86%         8.81%         12.12%         11.73%
       Brokered/Average Assets                                          46.02%        33.62%        33.24%         36.01%         28.13%
       Large Time/Average Assets                                         9.82%        19.13%        48.22%         49.15%         41.38%
       Examination Information                                         12/10/2007b 05/30/2006    09/28/2004     10/06/2003     12/02/2002
        Examination Conducted By                                             FDIC          GDBF           FDIC           GDBF         FDIC
        Composite/Component Ratingsa                                      4/444443     2/212122       2/112122        2/222222     2/222322
        Adverse Classifications Ratio                                     149.85%          1.17%           .29%         20.57%           0%
      Source: Uniform Bank Performance Reports (UBPR) and Reports of Examination (ROE) for FirstBank.
      a
        Financial institution regulators and examiners use the Uniform Financial Institutions Rating System (UFIRS) to evaluate a bank’s
      performance in six components represented by the CAMELS acronym: Capital adequacy, Asset quality, Management practices,
      Earnings performance, Liquidity position, and Sensitivity to market risk. Each component, and an overall composite score, is
      assigned a rating of 1 through 5, with 1 having the least regulatory concern and 5 having the greatest concern.
      b
        On March 25, 2008, the FDIC conducted a visitation to assess changes that had occurred in FirstBank’s financial
      condition since the December 10, 2007 full-scope examination.


Downturn in the Local Economy

      Some community banks in the Atlanta, Georgia, metropolitan area, which includes
      FirstBank’s local marketplace—Henry and Clayton counties—developed significant
      concentrations in construction and CRE/ADC lending as the housing market boomed.
      According to Moody’s Economy.com (Moody’s), high population and income growth and
      a relatively balanced real estate market encouraged too many lenders to enter residential
      and commercial development, and investors overestimated the resilience of the local
      economy.


                                                                3
However, the economy in Georgia, in general, and in the Atlanta metropolitan area, in
particular, slowed beginning in 2006, became more pronounced in 2007, and continued to
slow throughout 2008. As indicated in Table 2, according to Moody’s, various economic
indicators started to show a decline, beginning in 2006, with personal income growth and
single-family construction permits declining. In 2007, single-family construction permits
continued to decline along with the number of mortgage originations, and the number of
personal bankruptcies increased. According to Moody’s, the economy in the Atlanta
metropolitan area crashed under the weight of the steep national downturn and led the
nation in the number of bank failures.

Table 2: Indicators of an Economic Downturn in Georgia
                            Personal       Single-Family
              Total          Income        Construction     Mortgage         Personal
  Year      Employment     Growth Rate        Permits     Originations     Bankruptcies
 Georgia
   2005        4,002          7.3%            94,467         $78,326           79,273
   2006        4,089          5.9%            86,106         $80,872           39,142
   2007        4,146          6.0%            55,210         $73,938           48,636
   2008        4,103          3.0%            24,317         $53,950           59,287
 Atlanta Metropolitan Area
   2005        2,336          8.0%            61,558         $57,512           43,800
   2006        2,402          6.2%            53,927         $57,536           21,203
   2007        2,453          6.0%            31,089         $50,147           27,525
   2008        2,426          2.6%            12,056         $34,077           31,714
Source: Moody’s Economy.com, Précis STATE® and METRO, March 2009.

The FDIC’s December 2007 examination of FirstBank:

   •   identified significant deterioration in the bank’s financial condition, as evidenced
       by a substantial volume of adversely classified assets;

   •   concluded that FirstBank’s board of directors (BOD) and management had not
       adequately administered the bank’s ADC loan portfolio; and

   •   concluded that FirstBank’s BOD (1) had not recognized that the local real estate
       market had begun to show signs of a slowdown in early to mid-2007, (2) had been
       slow to respond to changing real estate market conditions, and (3) had failed to
       direct the bank into a more conservative position.

Based on the results of the December 2007 examination, FirstBank was not able to
effectively respond to the rapid decline in the local real estate market, which resulted in an
excessive volume of past-due and nonaccrual loans. According to the FDIC’s March 2008
visitation, which followed up on the significant deterioration in FirstBank’s financial
condition identified in the December 2007 examination, and despite the significant
economic downturn in the bank’s local market, beginning in 2006 and continuing into
2007, bank management planned to follow its business strategy that focused on ADC
lending and reliance on wholesale funding sources.




                                              4
CAUSES OF FAILURE AND MATERIAL LOSS

      FirstBank failed due to bank management’s pursuit of rapid growth in CRE/ADC lending
      concentrated in the Atlanta, Georgia, market. FirstBank funded the CRE/ADC lending
      primarily with more volatile wholesale funding, including brokered deposits and FHLB
      advances, which deviated from the bank’s FDIC-approved business plan. This growth
      strategy, coupled with weak risk management controls, left the bank unprepared to handle
      the effect of the significant downturn in the bank’s market.

      FirstBank’s BOD and management did not ensure that loan underwriting and credit
      administration practices were adequate and failed to recognize problem loans in a timely
      manner. As the market declined, FirstBank experienced increasing levels of adversely
      classified assets and associated losses and significant increases in the allowance for loan
      and lease losses (ALLL). Further, FirstBank did not have a definitive plan to reduce the
      bank’s reliance on wholesale funding sources and had not developed a comprehensive
      contingency liquidity plan (CLP). As losses in the loan portfolio increased, the bank’s
      earnings and capital eroded, and liquidity became strained, ultimately leading to the
      failure of the bank and an initial estimated loss to the DIF of $112 million.

Rapid Asset Growth and Concentration in ADC Loans

      According to DSC, the ultimate goal of FirstBank’s BOD and management was to
      increase the bank’s total assets to $500 million by the end of calendar year 2010. To
      achieve that goal, bank management pursued an aggressive asset growth plan without
      sufficient consideration for the risk to the bank and the DIF (see Table 3 on the next page).

      Although newly chartered banks are expected to prudently increase their level of assets as
      they attempt to establish a presence in the bank’s marketplace, FirstBank’s strategy of
      aggressive growth and concentration in ADC loans and use of wholesale funding sources
      significantly increased the risk to the institution. The FDIC and GDBF examiners first
      noticed FirstBank’s ADC concentration in the July 2002 examination, conducted 6 months
      after the bank opened, and the concentration steadily and consistently increased as
      indicated in Table 4, on the next page.

      The bank’s highest annual rates of growth occurred during the bank’s first 3 years of
      existence—the de novo period—and the bank had a cumulative growth rate of 369 percent
      for that period (see Table 3).6 As of December 31, 2007, FirstBank’s loan growth rate was
      20 percent for the year and almost twice as much as its peer group. Additionally, for the
      same period, FirstBank’s ADC loans represented about 73 percent of its entire loan
      portfolio, while the peer group’s ADC loans represented a little over 16 percent of total
      loans.



      6
       The de novo period for FirstBank ended January 28, 2005. The cumulative growth of 369 percent is based
      on January 28, 2002 through December 31, 2004—about 1 month short of the end of the bank’s third year of
      existence.


                                                         5
     Table 3: FirstBank’s Asset Growth
    Year Ending      FirstBank’s Total Assets           Annual Asset Growth               FirstBank’s
                      (Dollars in Thousands)        FirstBank       Peer Group          Cumulative Asset
                                                                                         Growth Rate
      Dec-02                $37,685               Not Applicable      Not Applicable     Not Applicable
      Dec-03                $87,482                   132%                113%               132%
      Dec-04              $176,823                    102%                 52%               369%
      Dec-05              $222,465                     26%                 34%               490%
      Dec-06              $276,821                     24%                 23%               635%
      Dec-07              $345,161                     25%                  8%               816%
      Dec-08              $317,237                    (8%)                 9%                742%
     Source: UBPRs for FirstBank.

In addition, after the bank’s application for deposit insurance was approved, the bank
changed its overall strategy related to ADC lending. According to the DSC’s Report of
Investigation,7 dated June 28, 2000, and the FDIC’s review of FirstBank’s business plan,
the bank planned to offer small-scale ADC residential lending. Contrary to the bank’s
initial plans, which served as the basis for the FDIC-approved deposit insurance,
FirstBank’s BOD and management changed their business strategy to significantly
concentrate the bank’s loan portfolio in ADC lending. In December 2002, FirstBank’s
concentrations had increased significantly and remained high throughout the bank’s
existence as shown in Table 4.

Table 4: FirstBank’s CRE and ADC Concentration Levels
                                                         Examination/Visitation Date
                                                           (Percent of Total Capital)
                            July     Dec        Oct         Sept        May           Dec     Mar         Nov
                           2002*     2002       2003        2004        2006         2007    2008*       2008*
    CRE Concentration      69.80    308.81      594.35       402.58    519.54      645.07    624.83      672.65

    ADC Concentration      47.91    153.81      353.93       180.90    402.87      558.41    532.33      546.44
Source: UBPRs and Reports of Condition and Income (Call Report) for FirstBank.
* FDIC visitation.

On December 12, 2006, the federal banking agencies issued joint guidance in Financial
Institution Letter 104-2006 (FIL-104-2006) on CRE lending entitled, Guidance on
Concentrations in Commercial Real Estate Lending, Sound Risk Management Practices.
The guidance concluded that concentrations in CRE lending may expose institutions to
unanticipated earnings and capital volatility in the event of adverse changes in the general
CRE market. The guidance also addressed sound risk management practices for
concentrations in CRE lending, provided supervisory criteria for identifying institutions
with potentially significant CRE loan concentrations that may warrant greater supervisory
scrutiny, and stated that the guidance was not intended to limit banks’ CRE lending.
Further, the guidance acknowledged that a concentration in CRE loans, coupled with weak

7
  The Report of Investigation contains conclusions and recommendations that present an overview of the
application for insurance and an analysis of findings and concludes with the investigating examiner’s
recommendation on whether the FDIC should grant federal deposit insurance to the proposed financial
institution.


                                                         6
      loan underwriting and depressed CRE markets, had contributed to significant loan losses
      in the past.

      Although the guidance does not specifically limit a bank’s CRE lending, the guidance
      provides the following supervisory criteria for identifying financial institutions that may
      have potentially significant CRE loan concentrations warranting greater supervisory
      scrutiny.

         •   Total reported loans for construction, land development, and other land represent
             100 percent or more of the institution’s total capital; or

         •   Total CRE loans that represent 300 percent or more of the institution’s total
             capital, and the outstanding balance of the institution’s CRE loan portfolio has
             increased by 50 percent or more during the prior 36 months.

      Since December 2002, FirstBank’s level of CRE/ADC concentrations had been high.
      Further, FirstBank’s December 2007 CRE concentration level of 645 percent was more
      than twice the 2006 supervisory criteria of 300 percent, and the concentration level of
      558 percent ADC was more than five times the 2006 supervisory criteria for ADC lending.

Deficient Underwriting and Credit Administration

      The December 2007 examination reported that FirstBank’s overall credit practices were
      increasingly ineffective, with underwriting standards and loan monitoring practices
      insufficiently and inconsistently applied. Deficiencies in FirstBank’s loan underwriting
      and credit administration practices had been noted at each of its six examinations, with
      varying degrees of examiner concern. Examples of those deficiencies, starting with the
      2004 examination, are described below.

         September 2004. The examination noted the following deficiencies that related to
         credit administration and the bank’s Loan Policy:

             •   a high volume of loan documentation exceptions;
             •   lending officers needed to better document loan files with regard to discussions
                 with borrowers and the status of specific projects;
             •   appraisal reviews were not consistently conducted; and
             •   management needed to develop a system to identify exceptions to regulatory
                 real estate lending standards and ensure that exceptions were reported to the
                 BOD at least quarterly.

         May 2006. Although bank management had taken steps to improve loan
         administration, the examination noted loan exceptions in 23 percent of the loans
         reviewed. The examiners reported that the bank’s credit grading system appeared
         appropriate and that management had revised the Loan Policy to address prior
         examiner recommendations. However, continued improvement was needed in




                                                    7
             obtaining and analyzing financial information as well as completing credit memoranda
             and obtaining current financial data on borrowers.

             December 2007. Examiners concluded that the BOD and management had not
             effectively identified, monitored, and controlled the risks inherent in the bank.

                 •   Risk management policies and practices, as well as management’s compliance
                     with existing policies, needed improvement. Numerous weaknesses in credit
                     underwriting and administration were identified, including (1) missing and/or
                     inadequate loan officer credit memorandums, (2) no annual credit reviews on
                     larger credit relationships, and (3) frequent loan renewals without principal
                     reductions.
                 •   An excessive level of technical exceptions was identified (FirstBank’s 2007
                     independent loan review noted an increase in loan documentation exceptions to
                     88 percent—up from 81 percent as identified in 2006).
                 •   The frequency of external loan reviews was inadequate.
                 •   The internal loan grading system needed improvement.
                 •   Deficiencies in management reports and risk monitoring systems relating to
                     concentrations of credit, loan-to-value exceptions, and interest reserves were
                     identified.
                 •   Inadequate risk management policies and practices led to numerous credit
                     administration and underwriting deficiencies. Consequently, apparent
                     violations of Part 365.2 of the FDIC Rules and Regulations,8 a contravention of
                     Appendix A to Part 365—Interagency Guidelines for Real Estate Lending
                     Policies, and a contravention of the interagency guidelines, Concentrations in
                     CRE Lending, Sound Risk Management Practices, were cited.

      Additionally, examiners noted that FirstBank used interest reserves for some ADC loans.
      However, examiners reported that FirstBank did not have a process for properly
      establishing, measuring, monitoring, and controlling the use of interest reserves. The
      FDIC has determined that interest reserves can mask problems with a borrower’s
      willingness and ability to repay debt consistent with loan obligations.

Untimely Recognition of Problem Assets and Inadequate ALLL

      As reported by examiners and FirstBank’s external auditors and identified by independent
      loan reviews, FirstBank’s controls over the recognition of problem assets, including the
      bank’s loan grading system, and the ALLL needed improvement. Accurate and timely
      credit grading is a primary component of an effective loan review system. Prompt
      recognition of problem loans (1) is necessary so that timely action can be taken to
      minimize losses and (2) provides essential information for determining the adequacy of
      the ALLL. Accordingly, the lack of timely recognition of problem assets affected the
      adequacy of the bank’s ALLL and overstated the bank’s capital and earnings.



      8
          Section 365.2 of the FDIC’s Rules and Regulations is entitled, Real Estate Lending Standards.


                                                             8
Problems with FirstBank’s loan grading system were first identified during the October
2003 examination, in which examiners identified and classified loans that had not been
appropriately graded on the bank’s watch list. In addition, FirstBank’s external auditors
noted significant deficiencies in FirstBank’s timely recognition of problem loans,
including its loan grading system, from 2005 through 2007, that could have impacted the
loan losses and the ALLL. Specifically:

   •   FirstBank’s external auditors reported in their Report to the Audit Committee,
       dated March 22, 2006, that FirstBank’s high percentage of loan documentation
       exceptions in the loan files was a significant deficiency and that failure to obtain
       required loan documentation could impact the collectability of loans and the
       adequacy of the ALLL.

   •   In their December 31, 2006 audit management letter, FirstBank’s external auditors
       highlighted an internal control deficiency that, in several instances, FirstBank had
       incorrectly graded loans on its internal management reports.

   •   The external auditors’ Report to the Audit Committee, dated March 21, 2007
       (1) stated that based on a sample of loans, FirstBank did not adequately obtain and
       track required loan documentation and (2) emphasized the lack of current financial
       information on borrowers. The report concluded that failure to obtain such
       documentation could impact the collectability of the loans and the adequacy of the
       ALLL.

   •   At the bank’s Audit Committee meeting on November 7, 2007, FirstBank’s
       external auditors expressed a strong concern regarding the accuracy of the ALLL,
       as of September 30, 2007, and stressed the importance of properly grading loans in
       a timely manner.

   •   In the Report to the Audit Committee, dated April 9, 2008, the independent
       auditors cited a significant deficiency in FirstBank’s internal control over financial
       reporting. The auditors concluded that problem loans should be brought to the
       attention of senior management in a timely manner. Further, the report stated that
       loan officers should be encouraged to monitor their portfolios and place loans on
       non-accrual status as soon as they become aware of credit weaknesses.

The FDIC’s December 2007 examination found that FirstBank’s internal loan grading was
ineffective and not properly applied according to the bank’s Loan Policy definitions.
Actual risk ratings assigned to loan relationships were not commensurate with the degree
of underlying risk. More loans were adversely classified by the independent-third-party
loan review and examiners than by FirstBank. Additionally, examiners concluded that
FirstBank’s asset quality had deteriorated significantly because the real estate market and
economy declined, and it became apparent that the likelihood of collecting on a significant
portion of the bank’s loan portfolio was low. As indicated in Table 5, which follows, loan
classifications increased from $327,000 in the May 2006 examination to over $50 million
in the December 2007 examination.



                                             9
        Table 5: FirstBank’s Adversely Classified Assets
                                                                               Total
                                                                             Adversely
             Examination                                                     Classified
                Date            Substandard      Doubtful       Loss          Assets
                                                 (Dollars in Thousands)
              July 2002                   0               0          0                   0
              Dec 2002                    0               0          0                   0
              Oct 2003               $1,343             $18        $14              $1,375
              Sept 2004                $ 64               0         $3                 $67
              May 2006                $327                0          0                $327
              Dec 2007              $44,822          $4,255       $964             $50,041
         Source: ROEs for FirstBank.

In November 2007, FirstBank revised its ALLL methodology to conform to the December
2006 regulatory guidelines.9 FirstBank originally calculated the ALLL at $4.4 million.
As a result of the additional downgrades and increase in adversely classified assets at the
December 2007 examination, and further deterioration through the first quarter of 2008,
FirstBank increased the ALLL an additional $1.9 million retroactive to
December 31, 2007. Also as a result of the December 2007 examination, FirstBank was
required to restate earnings for the year ended December 31, 2007, changing the bank’s
net income from $867,000 to a net loss of $296,000.

As indicated in Table 6, the funding for the provision for loan and lease losses (PLLL) and
ALLL between May 2006 and December 2007 almost doubled—from just below
$2 million to about $3.7 million.

     Table 6: FirstBank’s PLLL and ALLL
        Examination                                                      ALLL/
           Date          PLLL             ALLL                    Total Loans & Leases
                          (Dollars in Thousands)
         July 2002          $55              $55                          1.01%
         Dec 2002          $226            $226                           1.00%
         Oct 2003          $206            $511                           1.08%
        Sept 2004          $450           $1,169                          1.11%
        May 2006            $45           $1,958                          1.16%
         Dec 2007        $1,327           $3,672                          1.47%
     Source: UBPRs, Call Reports, and ROEs for FirstBank.

Over a 1-year period from September 30, 2007 to September 30, 2008, the level of
nonperforming assets increased from 44 percent to 240 percent of total capital, as
management began reducing the use of interest reserves and other forms of interest
9
  Interagency Policy Statement on the Allowance for Loan and Lease Losses (FIL-105-2006), dated
December 13, 2006 provides key concepts and requirements pertaining to the ALLL, including those in the
Generally Accepted Accounting Principles and existing supervisory guidance, and describes the nature and
purpose of the ALLL; the responsibilities of BODs, management, and examiners; factors to be considered in
the estimation of the ALLL; and the objectives and elements of an effective loan review system, including a
sound loan grading system.


                                                    10
    capitalization to defer payments on non-viable construction projects. FirstBank’s
    deficiencies related to the identification of impaired loans were also identified during the
    FDIC’s November 2008 visitation when examiners determined that FirstBank
    management had not properly evaluated collateral values when assessing loan impairment
    and had determined loan impairment based on stale financial information.

    As FirstBank’s assets deteriorated, the need to substantially increase the ALLL became
    apparent. The increases in the ALLL ultimately led to the erosion of the bank’s earnings
    and capital.

Ineffective BOD and Bank Management

    The FDIC’s December 2007 examination concluded that oversight provided by
    FirstBank’s BOD and management was inadequate. Bank management had used a
    business strategy that consisted of a high volume of brokered deposits and FHLB
    advances to fund the bank’s residential ADC loan concentration. The examiners also
    concluded that the BOD and management had not adequately underwritten or
    administered the ADC loan portfolio and had been slow to respond to changes in the real
    estate market conditions.

    According to the DSC Risk Management Manual of Examination Policies (Examination
    Manual), the quality of management is probably the most important element of successful
    bank operations. The BOD is responsible for formulating sound policies and objectives
    and providing effective supervision of the bank’s operations. Senior bank management is
    responsible for implementing policies and objectives during the day-to-day activities.
    However, FirstBank’s BOD and management failed to effectively identify, measure,
    monitor, and control the risks associated with their decision to pursue a concentration in
    ADC lending. Contrary to the stated responsibilities, FirstBank’s management failed to:

       •   ensure effective oversight of bank operations;
       •   make appropriate changes in the bank’s overall strategy to reflect the downturn in
           the local economy;
       •   ensure that loan underwriting and credit administration were sound;
       •   develop adequate risk identification and monitoring systems commensurate with
           the overall risk presented by the significant ADC concentration and wholesale
           funding strategy; and
       •   ensure that loan policies were adequate and followed.

    During the December 2007 examination, examiners concluded that deficiencies identified
    during that examination and the follow-up visitation were so extensive and systemic that
    they were cause for significant supervisory concern.

    As previously mentioned, in December 2006, the federal banking agencies issued CRE
    lending guidance in the FIL-104-2006. According to the guidance, the framework to
    effectively identify, measure, monitor, and control CRE/ADC concentration risk includes
    effective BOD and management oversight, portfolio management, management



                                                 11
      information systems, market analysis, sound loan underwriting and credit administration,
      portfolio stress testing and market analysis, and credit risk review.

      The December 2007 ROE concluded that FirstBank’s management had failed to comply
      with the December 2006 CRE guidance because the BOD and management had failed to
      (1) implement adequate oversight and management information systems, (2) conduct
      adequate market analyses, and (3) establish strong CRE underwriting standards.
      Examiners also concluded that FirstBank had apparently violated Part 365 of the FDIC
      Rules and Regulations, which prescribes standards for real estate lending by insured state
      nonmember banks. In addition, examiners identified credit administration deficiencies
      during the examination that included the need to enhance reports such as concentration of
      credit reports, interest reserve reports, and loan-to-value exceptions reports.

      Inadequate Planning to Address Overall Deterioration. During a March 2008
      visitation, examiners identified significant deterioration in FirstBank’s financial condition
      and concluded that FirstBank’s management did not have an effective plan to address the
      bank’s significant problems. Specifically, the FDIC determined that additional loan
      losses, reversals of accrued interest, and continued large provisions for the ALLL had
      been recognized during the first quarter of 2008 and stated that those issues were expected
      to continue through the remainder of the year. The visitation also concluded that liquidity
      remained problematic and that FirstBank’s management did not have a plan to
      significantly decrease the bank’s concentration of ADC loans and dependence on
      wholesale funding sources. Bank management had tentative plans to increase capital, and
      the holding company provided some financial support; however, capital was insufficient
      to address the institution’s overall risk profile given the level of adversely classified loans
      and reliance on wholesale funding.

      In spite of the deterioration in the bank’s overall condition, bank management planned to
      continue with the business strategy that included a significant ADC concentration and the
      use of wholesale funding sources. The FDIC’s March 2008 and November 2008
      visitations resulted in the FDIC and GDBF taking supervisory actions (discussed later in
      this report) to address these deficiencies.

Inadequate Loan Policy

      According to the Examination Manual, financial institutions should have loan policies that
      address the institution’s goals for the loan portfolio mix and risk diversification, and cover
      the bank’s plans for monitoring and taking appropriate action on any existing
      concentrations. At the December 2007 examination, the FDIC determined that
      FirstBank’s Loan Policy did not include specific and comprehensive criteria with respect
      to ADC and residential lending—the bank’s area of concentration. In addition, the bank
      either did not comply with or inconsistently applied other loan policies. Specifically,
      other than establishing the 40-percent limit of ADC loans to total loans, FirstBank did not
      have policy guidelines that addressed limits for different types of ADC loans. In addition,
      FirstBank had far exceeded the bank’s limit on ADC loans to the total loans. FirstBank’s
      Loan Policy, last revised in August 2004, included a maximum limit of 40 percent of ADC



                                                    12
      loans to total loans. For every quarter from December 2004 through March 2008,
      FirstBank exceeded its policy limits for ADC lending. As of September 30, 2007, the
      ratio of ADC loans to total loans was about 75 percent.

Heavy Reliance on Non-Core Funding

      The FDIC’s December 2007 examination concluded that FirstBank relied heavily on
      brokered deposits and FHLB borrowings to fund asset growth. Although FirstBank’s
      initial business plan stated that the bank did not plan to raise deposits through deposit
      brokers, the bank’s rapid growth in ADC loans was funded with substantial levels of such
      wholesale funding. As the bank’s ADC concentrations increased, FirstBank’s tolerance
      for risk in volatile funding also increased. Ultimately, the bank’s liquidity position
      became strained because the bank’s deteriorating financial condition resulted in regulatory
      restrictions on the institution’s access to wholesale funding sources.

      As early as December 2002, the examiners found that the volatile non-core funding
      dependence had been increasing as core funding became insufficient to support asset
      growth. As indicated in Table 7, which follows, except for the first two examinations
      conducted in 2002, FirstBank’s net non-core dependence ratio substantially exceeded the
      bank’s peer group, with dependence on non-core funding sources increasing from one
      examination to the next.

        Table 7: FirstBank’s Net Non-Core Dependence Ratio Compared to Peer
                                              Examination and Visitation Dates
                                                             (%)
                         July        Dec           Oct        Sept          May              Dec     Dec
                         2002       2002          2003        2004          2006            2007    2008*
         FirstBank      (43.52)       .50        28.57        49.40         50.24           59.52   69.02
         Peer            13.25       8.40          8.34       13.23         22.99           24.63   30.38
        Source: UBPRs and ROEs for FirstBank.
        * Based on the UBPR reporting date rather than an examination or visitation date.

      Beginning in 2003, FirstBank had consistently and increasingly used brokered deposits as
      one of its major funding sources for asset growth. The September 2004 examination
      reported that FirstBank’s liquidity and funds management practices were satisfactory and
      noted that the bank had difficulty obtaining local deposits at a reasonable cost due to
      strong competition from area banks and higher-than-anticipated loan growth.
      Accordingly, the bank relied more heavily on brokered deposits. The September 2004
      ROE noted that FirstBank was initiating efforts to raise local deposits, including opening
      additional branch offices. In fact, the May 2006 examination noted that FirstBank had
      increased core deposits by 34 percent between December 31, 2005 and March 31, 2006,
      and attributed the increase to the opening of a branch office. However, the increase in
      core deposits did not significantly affect the bank’s net non-core dependence ratio.

      FirstBank’s dependence ratio was consistently higher than the bank’s policy target.
      Examiners for the May 2006 examination reported that FirstBank’s BOD increased the
      acceptable dependence ratio to a maximum of 50 percent in April 2006. Management
      expected its reliance on wholesale funding to continue but planned to reduce the level of


                                                         13
brokered deposits while maintaining a high level of FHLB advances. The May 2006
examination also concluded that although the bank’s dependence ratio had remained
historically high, FirstBank management’s close monitoring mitigated any undue risk that
could be associated with the high-dependence ratio.

The December 2007 examination concluded that the competitive local market had
contributed to the bank’s inability to obtain low-cost retail deposits, and FirstBank’s
liquidity position was determined to be unsatisfactory and in need of immediate
improvement due to the overreliance on brokered deposits. According to the FDIC,
FirstBank’s management chose this funding strategy based on the bank’s cost analysis;
however, the bank’s cost of funds, as reflected in the December 31, 2007 UBPR, was
5.11 percent, which was significantly higher than the peer group average of 3.85 percent.

According to the FDIC’s March 27, 2008 visitation, the institution’s management did not
have a definitive plan that would significantly decrease the institution’s concentration of
ADC loans and overdependence on brokered deposits and wholesale funding sources. The
visitation report concluded that brokered deposits were still the major funding source for
the bank. In response to the March 2008 visitation report, FirstBank officials
acknowledged that obtaining local deposits would be a challenge for the bank and more
expensive than wholesale deposits and further concluded that the bank would remain
dependent on wholesale deposits. At the end of March 2008, FirstBank obtained
$81 million in brokered deposits to meet the bank’s liquidity needs, further placing the
bank’s use of such deposits outside of the bank’s internal policy limits.

In June 2008, FirstBank was considered Adequately Capitalized for PCA purposes, and
the bank’s use of brokered deposits was restricted. On August 28, 2008, the FDIC
received an application from FirstBank for a brokered deposit waiver10 in the amount of
$10 million, for a 120-day period, that would be used to retire maturing brokered deposits.
According to the DSC Supervisory History Memorandum, dated October 2008, the bank’s
on-balance sheet liquidity totaled $17.5 million and represented 4.95 percent of total
assets as of October 31, 2008. The bank had experienced $61 million in deposit runoff
since March 31, 2008, and brokered deposits totaling $5.1 million and $10.3 million were
to mature in November and December of 2008, respectively. Brokered deposits
represented 48.3 percent of total assets. On November 17, 2008, the results of the FDIC’s
visitation determined that FirstBank’s financial condition had continued to deteriorate, and
the bank was considered to be Significantly Undercapitalized for PCA purposes.
Accordingly, FirstBank withdrew the bank’s brokered deposit waiver request.

Contingency Liquidity Plan. The institution had an Asset/Liability Management (ALM)
Policy in place since November 26, 2001. The ALM’s last revision was dated
December 21, 2006 and was approved by the BOD on February 21, 2008. The ALM

10
  Section 29 of the FDI Act prohibits an insured depository institution that is Adequately Capitalized from
accepting funds obtained, directly or indirectly, by or through any deposit broker for deposit into one or
more deposit accounts, but permits the FDIC to grant a waiver from the prohibition. Institutions that are
considered to be Undercapitalized (including Significantly Undercapitalized), under PCA provisions, are
subject to the prohibition but may not obtain a waiver.


                                                     14
      included a section on a CLP, explaining FirstBank’s policy and expectation to manage its
      funding sources and liquidity so that all funding needs were satisfied.

      Our review of the December 21, 2006 CLP, contained in the ALM Policy, determined that
      it did not include various elements that DSC had suggested bank management include in a
      CLP. According to the Examination Manual, CLPs should:

          •   be in force and include strategies for handling a liquidity crisis and procedures for
              addressing cash flow shortfalls in emergency situations and

          •   be available to manage and monitor liquidity risk, ensure that an appropriate
              amount of liquid assets is maintained, measure and project funding requirements,
              and manage access to funding sources.

      Although the FDIC has provided extensive guidance to financial institutions regarding the
      need for, and the suggested components of, a comprehensive CLP, FirstBank had not
      developed an adequate CLP that took into consideration the FDIC’s guidance. When
      FirstBank’s financial condition began to deteriorate, the bank’s options for sources of
      funding were limited. The FDIC’s December 2007 examination concluded that bank
      management needed to review and update the CLP, especially as it related to a potential
      liquidity crisis, and the institution needed to develop strategies to reduce the bank’s
      dependence on non-core and potentially volatile liabilities.

ASSESSMENT OF SUPERVISION

Historical Snapshot of FDIC Supervision

      DSC’s Atlanta Regional Office and the GDBF provided supervision of FirstBank through
      onsite examinations, visitations, and off-site monitoring. The regulatory agencies
      conducted six examinations of FirstBank, and the FDIC conducted three visitations. The
      first visitation, conducted in July 2002, was concurrent with the GDBF’s initial
      examination of FirstBank as a de novo bank. The second FDIC visitation was conducted
      in March 2008 after significant deterioration in the bank’s financial condition had been
      identified during the December 2007 examination. There was also a visitation in
      November 2008. Each of the safety and soundness examinations for FirstBank identified
      the bank’s rapid growth and ADC concentration and provided recommendations and
      suggestions to improve the bank’s safety and soundness. The FDIC started daily
      monitoring of the bank’s liquidity position in November 2008. These activities identified
      the problems that led to FirstBank’s failure.

      Table 8, which follows, provides a snapshot of FirstBank’s CAMELS component and
      composite ratings.




                                                    15
     Table 8: FirstBank’s CAMELS Component and Composite Ratings
         Examination Date                         Supervisory Ratings
     July 2002                                           112313/2
     December 2002                                       222322/2
     October 2003                                        222222/2
     September 2004                                      112122/2
     May 2006                                            212122/2
     December 2007                                       444443/4
     November 2008*                                      554554/5
     Source: OIG Review of ROEs.
     * Visitation that resulted in an interim downgrade in FirstBank’s ratings.


FirstBank’s composite ratings remained at 2 until the December 2007 examination, when
the bank’s composite rating was downgraded to 4, indicating serious financial or
management deficiencies and increasing risk primarily resulting from the significant
financial deterioration in the bank’s ADC loans. The FDIC (1) conducted a visitation in
March 2008 to review concerns raised in the December 2007 examination and
(2) incorporated the results into the December 2007 ROE.11 As a result of the FDIC’s
March 2008 visitation, the FDIC downgraded a number of the bank’s ratings. The
component rating was downgraded from a 3 to a 4 for capital, earnings, and management,
and the composite rating was downgraded to a 4. Additionally, FDIC examiners
recommended that an enforcement action should be implemented because the condition of
the bank was continuing to deteriorate during the first quarter of 2008. The recommended
downgrade in the management rating was attributed to the lack of a clear operating plan
and the increasing risk profile of the bank, which included excessive levels of adversely
classified items, inadequate capital, and deficient earnings. As a result of a visitation the
FDIC conducted in November 2008 to assess the overall financial condition of the bank,
FirstBank’s composite rating was downgraded to a 5, indicating extremely unsafe and
unsound practices or conditions, critically deficient performance, and inadequate risk
management practices.

In addition to providing component and composite ratings for each examination, the FDIC
made recommendations at various times to FirstBank related to the identification and
monitoring of ADC loan concentrations, enhancements to loan underwriting and credit
administration practices, liquidity sources and management, and compliance with internal
policies and guidelines. However, the bank’s corrective actions taken in response to the
FDIC’s recommendations did not resolve the underlying problems related to these issues.

Further, to address examiner concerns documented in the December 2007 ROE and
discussed with the FDIC on May 7, 2008, including apparent violations of laws and
regulations, inadequate risk management controls, and other safety and soundness issues,
FirstBank adopted a Bank Board Resolution (BBR), which the bank’s BOD transmitted to
the FDIC on June 6, 2008. The BBR required FirstBank to, among other things:

11
  The FDIC’s December 2007 examination started on December 10, 2007, was based on September 30,
2007 financial data, and incorporated the results of the FDIC’s March 2008 visitation.


                                                          16
     •   perform a risk analysis with respect to credit concentrations and reduce the level of
         credit risk to the bank;
     •   establish limits on the nature and type of construction projects to be considered;
     •   maintain an appropriate ALLL;
     •   review and revise the bank’s loan underwriting policies and procedures for ADC
         lending;
     •   reduce the amount of classified items;
     •   review the bank’s liquidity and contingency plan and develop a plan to reduce
         reliance on brokered deposits; and
     •   review and amend, as necessary, the bank’s capital plan.

On June 12, 2008, the FDIC notified FirstBank of its “troubled condition”12 status and that
the institution had been added to the FDIC’s formal problem bank list.13

The FDIC and GDBF issued a C&D, dated October 20, 2008. Among other items, the
C&D required FirstBank to:

     •   obtain an independent review of management,
     •   establish an effective loan review program,
     •   reduce classified assets,
     •   reduce concentrations of credit,
     •   develop a liquidity management program,
     •   eliminate reliance on brokered deposits, and
     •   maintain higher minimum capital levels and develop a capital plan.

In addition, in November 2008, the FDIC conducted a visitation to review the bank’s
troubled loan portfolio and the bank’s capital adequacy, earnings, and liquidity.

CRE Review. To better understand and monitor the risks associated with CRE lending in
Georgia, and particularly in the Atlanta metropolitan area, in 2003, the FDIC conducted an
analysis of CRE lending practices and procedures in FDIC-supervised institutions. The
2003 pilot program targeted institutions with significant CRE holdings as reported in
quarterly Call Reports as of December 31, 2002. The review included approximately
70 institutions, including FirstBank, which had reported a CRE concentration of
383 percent of capital at December 31, 2002. With only a few exceptions, the FDIC found
that CRE risks and challenges were well understood and that the reviewed banks with

12
   Implementing section 32 of the FDI Act, FDIC Rules and Regulations section 303.101(c), indicates that
“troubled condition” means in general that the FDIC-supervised institution is rated 4 or 5 subject to a Cease
and Desist Order (C&D), or has been notified by the FDIC based on Call Report or other information. An
institution in troubled condition is required to notify the FDIC of changes in the membership of its BOD or
senior executive officer. The FDIC can disapprove the change.
13
   On June 23, 2008, the Federal Reserve Bank of Atlanta notified FirstBank’s holding company that it also
was considered to be in “troubled condition” and required the holding company to obtain written approval
before the company took certain actions that might have affected the holding company’s financial condition,
including but not limited to: declaring and paying dividends, redeeming capital stock, and making any other
payment that would result in a reduction of capital, except as related to normal and routine operating
expenses.


                                                     17
   significant CRE concentrations had implemented adequate policies and procedures to
   identify and manage risk associated with CRE loans. In addition, the FDIC identified a
   number of banks that were not in full compliance with the identification and BOD
   reporting requirements of Appendix A of Part 365 of the FDIC Rules and Regulations
   concerning real estate lending standards. The FDIC also noted deficiencies concerning the
   lack of consistent internal appraisal review procedures.

   Regarding FirstBank, the FDIC concluded that the institution’s CRE-related risk
   management practices were “fair,” with respect to CRE lending, which indicated that the
   FDIC considered FirstBank to have (1) a higher concentration of CRE development loans;
   (2) Loan Policy risk limits and risk management controls for identifying, measuring,
   monitoring, and controlling risks that warranted improvement; and (3) a generally high
   volume of technical exceptions and past-due loans.

OIG Assessment of FDIC Supervision

   Throughout the life of the bank, the FDIC and GDBF provided supervisory oversight of
   FirstBank by conducting onsite examinations, visitations, and off-site monitoring.
   Examiners identified concerns that related to FirstBank’s concentrations in CRE/ADC
   lending; loan underwriting and credit administration deficiencies; and reliance on non-
   core deposits, including the bank’s high net non-core dependence ratios. Examiners also
   made recommendations including, but not limited to, improving the bank’s risk
   management policies and practices and actions needed to monitor risk. In addition, the
   examiners identified and cited apparent violations of laws and regulations.

   Although the FDIC identified the significant issues that contributed to FirstBank’s
   ultimate failure, the FDIC could have provided additional and timelier supervisory
   attention for FirstBank. The examinations of FirstBank could have more fully
   considered the risks associated with the rapid growth of the de novo institution with
   (1) concentrations in CRE/ADC lending funded with wholesale funding sources and
   (2) weak risk management controls. Further, although the FDIC’s off-site monitoring
   identified the risk related to FirstBank between June 2006 and September 2007, the FDIC
   did not take action until the issuance of the December 2007 ROE, which incorporated the
   results of the March 2008 visitation. The bank’s financial condition deteriorated
   significantly between the May 2006 and December 2007 examinations, as the economy
   slowed. However, the risk and deficiencies associated with the ADC concentration had
   been identified at the bank since the December 2002 ROE.

   The FDIC did not take any informal action (i.e., BBR or Memorandum of Understanding)
   or formal action (C&D) until 2008 when there were significant and quantifiable losses in
   the bank’s loan portfolio. Rather than issuing formal or informal actions, the DSC Atlanta
   Regional Office (ARO) officials stated that the region uses moral suasion as a means to
   convince bank officials to implement corrective actions to address examiner concerns
   when the bank has no or low levels of adversely classified assets, low loan loss rates, and
   high capital levels. The ARO officials also stated that it is a challenge to examiners to
   determine which action is appropriate when a financial institution has a high level of



                                               18
CRE/ADC concentrations but no negative financial impact. However, given the risk that
the CRE/ADC concentration funded with wholesale deposits presented to FirstBank, more
timely consideration of the associated risk that the FDIC and GDBF examinations
identified could have resulted in elevated supervisory concern and action to address
FirstBank’s problems earlier.

Identification of Risk. The FDIC identified risk-related deficiencies at FirstBank in
2003, and the subsequent examinations of FirstBank in 2004 and 2006 also identified
continued high levels of CRE/ADC concentrations and risk management control
deficiencies. ARO officials stated they had concluded that the deficiencies identified by
the 2004 examination were correctable in the normal course of business and that
additional supervisory action was not necessary. Therefore, the ARO did not take action
to address the concentrations and control deficiencies until after the 2007 examination.
Examiners identified the bank’s concentrations in CRE/ADC lending as early as the July
2002 examination. Although the FDIC had concluded in 2003 that FirstBank had only
“fair” CRE-related controls, that conclusion did not result in more timely supervisory
action to address the related risks. The FDIC’s 2004 examination concluded that the risk
associated with the CRE/ADC concentrations was mitigated by the bank’s experienced
staff, sound underwriting practices, and the strong demand for residential and commercial
development in the bank’s market. That examination further concluded that the bank had
not yet incurred any losses from those lending activities. The FDIC’s 2004 examination
also noted several deficiencies in FirstBank’s credit administration and Loan Policy. The
GDBF 2006 examination of FirstBank also reported the bank’s ADC concentration,
concluded that the lending did not present a risk to the bank, and noted that credit
administration deficiencies were still present.

The bank’s concentrations and the associated risk continued until the bank’s last full-
scope examination in December 2007 and the March 2008 visitation. Ultimately, the
FDIC concluded that bank management had not effectively identified, monitored, and
controlled the risks inherent to the bank, including the aggressive growth strategy in the
ADC lending. Until the December 2007 examination, although FirstBank had exhibited
significant ADC concentrations since December 2002 and had deficiencies related to
CRE/ADC risk management controls, examiners had concluded that either the
concentrations did not present an undue risk to the bank or that bank management was
appropriately managing the risk. The examiners seemed to focus their overall assessment
of asset quality more heavily on the bank’s financial condition rather than its de novo
status, risk presented by the BOD’s and management’s rapid growth strategy and plans for
continued growth, high ADC concentration levels, and the absence of sound underwriting
and credit administration practices.

The CRE concentration guidance issued in December 2006 reminded institutions and
examiners that strong risk management practices and appropriate capital levels are
significant to a sound CRE lending program. Further, financial institutions that (1) have
rapid growth in CRE lending, (2) have notable exposure to a specific type of CRE, or
(3) are approaching or exceed the supervisory criteria for CRE/ADC lending may be




                                            19
identified for further supervisory analysis of the level and nature of CRE concentration
risk.

Off-site Monitoring. FirstBank was consistently flagged for off-site monitoring for at
least 6 quarters, beginning June 2006 through March 2008. Concerns were related, but not
limited to, the bank’s rapid growth and increasing probability of downgrades in the bank’s
ratings. The FDIC’s Off-site Review Program is designed to identify emerging
supervisory concerns and potential problems so that supervisory strategies can be adjusted
appropriately. Each of the off-site monitoring reports for FirstBank noted risk factors
associated with the bank that included, but were not limited to:

   •   rapid asset growth,
   •   high concentration in CRE/ADC lending, and
   •   heavy use of non-core deposits to fund asset growth.

In addition, the FDIC’s off-site monitoring activities in 2006 concluded that the bank’s
asset growth was significant and was outpacing the bank’s capital, FirstBank’s reliance on
wholesale funding sources was higher than average, asset quality continued to be strong,
and management had adequate plans in place to maintain a strong capital position.

According to DSC’s Relationship Manager Supervisory Plan for FirstBank (the Plan),
dated March 2007, although bank management was generally effective in managing risk,
several exceptions in the loan administration practices and compliance with laws and
regulations needed improvement. The Plan also stated that FirstBank had been flagged for
off-site review due to rapid asset growth, which was centered in CRE loans—representing
88 percent of total loans. Also, in less than 5 years, FirstBank’s assets had grown from
$14 million as of March 31, 2002 to $277 million as of September 30, 2006.

Until September 2007, when examiners concluded that there was considerable risk in the
bank’s loan portfolio, FirstBank’s level of past-due and adversely classified loans
increased, and the bank’s liquidity became strained, examiners had concluded that no
follow-up was necessary beyond the regularly scheduled examination. Table 9, which
follows, summarizes the off-site monitoring activity for FirstBank.




                                            20
Table 9: FDIC’s Off-site Monitoring Results
                                                                      Off-site Review Dates*
         Issues Included in the FDIC’s Off-site
                                                            June   Sept Dec Sept         Dec        Mar
                 Review Documentation
                                                            2006   2006 2006 2007        2007       2008
Rapid asset growth                                           9      9      9       9                  9
High CRE/ADC concentration                                   9      9      9       9       9          9
Growth funded by volatile deposits                           9      9      9                          9
High net non-core dependence ratio                           9      9      9
Asset growth outpacing capital growth                        9      9      9
Asset quality was deemed to be strong                        9      9      9
Capital level of FirstBank was Well Capitalized              9      9      9       9
Increasing/high probability of downgrades in CAMELS                        9       9       9
ratings
Considerable risk in loan portfolio                                                   9
Increased adverse classifications/deterioration within the                            9       9
ADC portfolio
Strained liquidity                                                                    9
No follow-up beyond the regular examination cycle was         9       9      9
recommended
Continued monitoring of the bank’s activities or follow-up                            9       9
visitation was warranted
Supervisory and/or Enforcement action pursued                                                          9
Source: FDIC off-site reviews of FirstBank.
*FirstBank had been flagged for off-site review at December 2002 for a high probability of downgrades of
management and earnings ratings, but no follow-up beyond the regular examination cycle was
recommended.

According to the September 30, 2006 off-site monitoring results, asset growth rates had
begun to subside, and bank management had funded asset growth through brokered
deposits and FHLB borrowings, which led to a declining level of core deposits and a high
non-core deposit dependence ratio of 59 percent. The FDIC concluded that although asset
growth was significant and reliance on wholesale funding sources was above average,
asset quality continued to be strong (i.e., no adversely classified assets), and the FDIC
concluded that bank management had adequate plans in place to maintain a strong capital
position.

Contrary to the risk factors identified during the off-site monitoring from June 2006 to
September 2007 (as noted in Table 9), the FDIC did not accelerate FirstBank’s
examination schedule or conduct a visitation to follow up on identified risks. The FDIC
continued to conclude until September 2007 that no follow-up beyond the regular
examination cycle was warranted and did not take action to address identified risks until
the December 2007 examination and March 2008 visitation—the results of which were
incorporated into the December 2007 ROE. By the time the FDIC conducted the
December 2007 examination—about 18 months after the June 2006 off-site monitoring
reported the risk associated with FirstBank—and the March 2008 visitation, about
3 months later, FirstBank’s overall financial condition had severely deteriorated.

Non-Core Funding. FirstBank’s examinations consistently reported that the bank was
heavily reliant on non-core/volatile funding sources to fund asset growth and that the level



                                                   21
of such funding greatly exceeded the bank’s peer group. However, it was not until the
bank’s December 2007 examination that the FDIC concluded that FirstBank’s:

     •   liquidity was unsatisfactory and in need of immediate improvement due to an over-
         reliance on brokered deposits, increasing problem asset volume and negative
         earnings;

     •   internal liquidity ratio was barely over the bank’s policy minimum, and the net
         non-core funding dependence ratio, as of September 2007, was in the highest 10th
         percentile relative to the bank’s peer group;14

     •   CLP needed to be reviewed and updated; and

     •   strategies to reduce the level of reliance on non-core and potentially volatile
         liabilities needed to be developed.

Examiners concluded that the bank needed to operate in compliance with the BOD’s
approved liquidity guidelines, with noncompliance being the rare exception, rather than a
frequent occurrence. The FDIC did not restrict the bank’s use of non-core/volatile
funding sources until after considering the results of the December 2007 examination and
March 2008 visitation. In addition, examinations prior to December 2007 did not address
whether the bank had a CLP or whether it was considered to be adequate or
comprehensive. Consequently, when the bank’s financial condition deteriorated, access to
these funding sources was restricted.

Timeliness of Supervisory and Enforcement Action. The FDIC should have taken
more timely supervisory and/or enforcement action regarding the risk that FirstBank’s de
novo status and CRE/ADC concentration presented to the bank and to the DIF.
FirstBank’s concentration in ADC loans was first identified in 2002 and again in the
bank’s 2004 and 2007 examinations and 2008 visitation. The concentration, coupled with
inadequate risk management practices that had been identified and reported on in each
examination and off-site monitoring, indicated increased risk to the bank.

The FDIC did not take informal or formal action until after the December 2007
examination, which determined that significant deterioration had occurred in the bank’s
financial condition. The supervisory actions consisted of a BBR and a C&D. The BBR
was adopted by FirstBank on June 6, 2008, after the May 7, 2008 meeting with the FDIC
regarding the December 2007 examination and March 2008 visitation results. Even
though the C&D was recommended at the end of March 2008, it did not become effective
until October 2008, nearly 7 months after it was first recommended and 4 months prior to
the closing of FirstBank. ARO officials stated that the regional office did not start
drafting the C&D until June 2008—after the examination report had been reviewed and
processed. The C&D was comprehensive and covered the deficiencies identified at the
bank; however, it was not timely in addressing the significant deterioration that resulted

14
  FirstBank’s peer group includes all insured commercial banks having assets between $300 million and
$1 billion.


                                                   22
      from the bank’s inadequate BOD and management oversight, the significant ADC
      concentration, and weak management controls, which were collectively amplified by the
      severe economic decline.

Conclusion

      DSC’s 2004 De novo Bank Study,15 reported that de novo institutions frequently exhibit
      factors that present significant risks, including, but not limited to (1) weak oversight by
      the BOD, (2) rapid asset growth, (3) departure from the business plan by exceeding
      projected asset growth, and (4) dependence on non-core sources to fund growth in high-
      risk loans. FirstBank’s management implemented a high-risk growth strategy but failed to
      (1) follow the approved business plan and strategy as they related to ADC loans and
      funding sources, (2) ensure that sound risk management policies and practices were
      established and followed, and (3) ensure that the bank’s dependence on wholesale funding
      sources was limited and that the bank developed and implemented a comprehensive CLP
      for effective liquidity management. The mismanagement and weaknesses that FirstBank
      exhibited in all of these areas contributed to the bank’s failure.

IMPLEMENTATION OF PCA

      The purpose of PCA is to resolve problems of insured depository institutions at the least
      possible long-term cost to the DIF. PCA establishes a system of restrictions and
      mandatory and discretionary supervisory actions that are to be triggered depending on an
      institution’s capital levels. Part 325 of the FDIC’s Rules and Regulations implements
      PCA requirements by establishing a framework for taking prompt corrective action against
      insured nonmember banks that are not adequately capitalized.

      FirstBank had capital injections to support the bank’s asset growth (see Table 10, which
      follows). Between 2003 and 2004, the bank received $14 million in capital. In 2007, the
      bank received $3 million in capital. In November 2008, FirstBank received $1 million
      during the first quarter and $1.25 million during the third quarter of the year.




      15
        The DSC Atlanta Region led an interregional study of de novo financial institutions in fulfillment of a
      DSC 2004 business line objective. The purpose of the study was to review the timing of, and susceptibility
      to, problems of de novo financial institutions and to determine important factors in the application process
      that would aid in the efficient supervision of new banks. The study also provided information on “young”
      banks, which are banks in the fourth through ninth years of operation. The FDIC’s Division of Insurance
      and Research and Legal Division also participated in the study.


                                                           23
         Table 10: Capital Injections for FirstBank
                                                    Amount of Capital Injection
                         Year
                                                             ($000)
                         2003                                $2,000
                         2004                               $12,000
                         2005                                 None
                         2006                                 None
                         2007                                $3,000
                         2008                                $2,250
         Source: DSC’s Supervisory History Memorandum.

Until 2007, the capital injections and the lack of significant adversely classified assets
resulted in examiners concluding that the bank’s capital was satisfactory. Although the
bank had capital injections on various occasions, the FDIC’s problem bank memorandum,
dated November 12, 2008, concluded that the bank’s continued asset deterioration more
than offset the financial impact of the capital injection received in the first and third
quarters of 2008.

Table 11 shows how FirstBank’s capital ratios compared to the bank’s peer group for
three of the bank’s six examinations and as of June 30, 2008, when FirstBank became
Adequately Capitalized for PCA purposes. Table 11 reflects the change in capital between
June 2004 and June 2008 and shows that FirstBank’s capital ratios were either above or
about the same as the bank’s peer group until June 30, 2008.

Table 11: FirstBank’s Capital Ratios Compared to Peer
                                         Tier 1 Leverage     Tier 1 Risk-Based    Total Risk-Based
  Examination      Financial Data as         Capital               Capital            Capital
     Dates             of Date          Bank       Peer      Bank         Peer    Bank       Peer
                                                                 (Percent)
 September 2004 June 30, 2004           16.41        12.97   18.38       17.11    19.36     18.16
 May 2006         March 31, 2006        11.41        11.07   13.32       13.99    14.32     15.15
 Dec 2007         September 30, 2007     9.14         9.15   10.61       11.77    11.87     12.87
 N/A              June 30, 2008          5.94         8.93    8.42       11.46     9.69     12.59
Source: ROEs and UBPRs for FirstBank.

The FDIC and GDBF evaluated FirstBank’s capital position and assigned a capital
component rating of 1 or 2 for each of the five examinations conducted from July 2002
through May 2006, indicating a strong or satisfactory capital level relative to the bank’s
risk profile. However, the March 2008 FDIC visitation results, which were incorporated
into the sixth and last examination of FirstBank—December 2007—concluded that
FirstBank’s risk profile was significantly greater than reflected in the PCA category of
Well Capitalized. The visitation also noted that the bank’s ADC concentration, in which
most problem credits had been centered, was 568 percent of Tier 1 Capital at
September 30, 2007. The risk profile was further compounded by the bank’s heavy
reliance on wholesale funding sources, which are potentially more volatile than more
traditional deposits. Additionally, earnings were negative for 2007 and were projected to
be negative in 2008. Given all these additional factors (identified in the March 2008
visitation), the bank’s capital component rating was downgraded to a 4, indicating a


                                                24
deficient level of capital that could threaten the viability of the institution and require the
bank to obtain financial support from shareholders or other external sources. As a result,
the October 2008 C&D contained several capital-related provisions even though the
bank’s reported PCA capital ratios in 2008 had been in the Well Capitalized to Adequately
Capitalized range. The capital-related provisions of the C&D required FirstBank to:

     •   maintain Tier 1 Leverage Capital at least equal to 8 percent of total assets;
     •   develop and adopt a capital maintenance plan; and
     •   restrict the payment of dividends without the prior written approval of the FDIC and
         GDBF.

In November 2008, as a result of off-site review and a visitation, the FDIC downgraded
FirstBank’s capital component rating to a 5. The downgrade resulted from the bank’s
materially deficient level of capital due to severe asset quality problems and operating losses
that rapidly eroded the bank’s capital position.16 Visitation findings resulted in an additional
$10.4 million provision to the ALLL, as well as a charge-off of $497,000 in accrued but
uncollected interest. As a result, the bank’s key capital ratios as of November 30, 2008 were
as follows.

     •   Tier 1 Leverage Capital           2.90 percent
     •   Tier 1 Risk-Based Capital         4.12 percent
     •   Total Risk-Based Capital          5.44 percent

The capital ratios reflect a Significantly Undercapitalized category under PCA provisions in
Part 325 of the FDIC’s Rules and Regulations. On January 13, 2009, the FDIC presented the
BOD with a PCA Notification of Capital Category letter that advised the bank of its
Significantly Undercapitalized capital category. The notification letter required FirstBank to
file a written capital restoration plan with the FDIC within 45 days. However, FirstBank was
closed on February 6, 2009, less than a month after the notification.

PCA’s focus is on capital, and capital can be a lagging indicator of an institution’s financial
health. FirstBank’s capital designation for PCA purposes remained in the Well Capitalized
range to Adequately Capitalized range long after its operations had begun to deteriorate
because of problems related to management, asset quality, risk management controls, and net
losses. In particular, the ALLL was significantly underfunded, which overstated capital and
masked the deterioration of the loan portfolio. Further, by the time FirstBank’s capital level
fell below the required threshold necessary to implement PCA, the bank’s condition had
deteriorated to the point at which the institution could not raise additional needed capital or
find other investors to assist in recapitalizing the bank.



16
  On November 13, 2008, FirstBank submitted an application for the Troubled Asset Relief Program’s
(TARP) Capital Purchase Program administered by the United States Department of the Treasury.
FirstBank requested approval of $8.4 million in TARP funds and stated that the bank had been unsuccessful
in raising additional capital. During the week of November 17, 2008, the FDIC discussed with FirstBank
officials the continued significant deterioration of the bank. On November 21, 2008, FirstBank withdrew
the TARP application.


                                                   25
    In summary, examiners fulfilled the notification requirements of the PCA provisions of
    the FDI Act, but the notice was too late to correct the bank’s capital problems.

CORPORATION COMMENTS

    On September 1, 2009, the Director, DSC, provided a written response to the draft report.
    DSC’s response is provided in its entirety as Appendix 4 of this report. In its response,
    DSC reiterated our findings that FirstBank failed primarily due to management’s pursuit
    of rapid growth in CRE and ADC loans, which were concentrated in suburban Atlanta,
    Georgia, and funded with higher-cost, volatile wholesale sources. DSC stated that this
    business strategy, coupled with the economic downturn that accelerated in 2007, resulted
    in loan losses depleting capital and earnings and impairing liquidity to the magnitude of
    which the institution was unable to recover and ultimately failed.

    DSC also noted that the FDIC, in conjunction with the GDBF, provided ongoing
    supervision of FirstBank and identified key concerns for attention by bank management,
    including problems that led to the bank’s failure. Further, DSC stated that supervisory
    examinations and visitations in 2003, 2004, and 2006 discussed the risks associated with
    the elevated concentration in CRE/ADC lending and that the FDIC took formal
    enforcement action following the bank’s December 2007 examination.

    DSC acknowledged that FirstBank’s practice of highly concentrated ADC lending
    warranted earlier intervention before the bank’s financial condition deteriorated. DSC
    remarked that it has provided further guidance to enhance its supervision of institutions
    with concentrated CRE/ADC lending and volatile non-core funding.




                                                 26
                                                                                    APPENDIX 1
                            OBJECTIVES, SCOPE, AND METHODOLOGY


Objectives

      We performed this audit in accordance with section 38(k) of the FDI Act, which
      provides, in general, that if a deposit insurance fund incurs a material loss with respect to
      an insured depository institution, the Inspector General of the appropriate federal banking
      agency shall prepare a report to that agency reviewing the agency’s supervision of the
      institution. The FDI Act requires that the report be completed within 6 months after it
      becomes apparent that a material loss has been incurred.

      Our audit objectives were to (1) determine the causes of the financial institution’s failure
      and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
      institution, including implementation of the PCA provisions of section 38.

      We conducted the audit from March 2009 to August 2009 in accordance with generally
      accepted government auditing standards. However, due to the limited scope and
      objectives established for material loss reviews, which are generally applied to just one
      financial institution, it may not have been feasible to address certain aspects of the
      standards, as described on the next page.


Scope and Methodology

      The scope of this audit included an analysis of FirstBank’s operations from January 28,
      2002 until its failure on February 6, 2009. Our review also entailed an evaluation of the
      regulatory supervision of the institution over the same period.

      To achieve the objectives, we performed the following procedures and techniques:

             •   Analyzed examination and visitation reports prepared by the FDIC and GDBF
                 examiners from 2002 to 2008.

             •   Reviewed the following:
                   • Bank data and correspondence maintained at DSC’s ARO and the Tampa
                     Field Office.

                   •   Reports prepared by the Division of Resolutions and Receiverships (DRR)
                       and DSC relating to the bank's closure.

                   •   External audit records provided by Mauldin & Jenkins, FirstBank’s external
                       auditors located in Atlanta, Georgia.

                   •   Bank records maintained by DRR in Dallas regarding information that would
                       provide insight into the bank’s failure, various annual reports, and
                       accompanying financial statements.



                                                     27
                                                                                      APPENDIX 1


                 •   pertinent DSC policies and procedures.

           •   Interviewed the following FDIC officials:

                 •   DSC management in Washington, D.C., and the ARO.

                 •   FDIC examiners from the Atlanta Field Office and the Tampa Field Office
                     who participated in examinations or reviews of examinations of FirstBank.

           •   Met with officials from the GDBF to discuss the historical perspective of the
               institution, its examinations, state banking laws, and other activities regarding the
               state’s supervision of the bank.

           •   Researched various banking laws and regulations, including Georgia State laws.

      We performed the audit field work at the ARO and Tampa Field Office in Atlanta,
      Georgia, and Tampa, Florida, respectively.


Internal Control, Reliance on Computer-processed Information, Performance
Measurement, and Compliance With Laws and Regulations

      Due to the limited nature of the audit objectives, we did not assess DSC’s overall internal
      control or management control structure. We reviewed the examiner’s assessment of
      FirstBank’s management controls pertaining to its operations as discussed earlier in this
      report.

      We obtained data from various systems but determined that information system controls
      were not significant to the audit objectives, and therefore, did not evaluate the
      effectiveness of information system controls. We relied on our analysis of information
      from various sources, including ROEs, correspondence files, and testimonial evidence to
      corroborate data obtained from systems that were used to support our audit conclusions.

      The Government Performance and Results Act of 1993 (the Results Act) directs
      Executive Branch agencies to develop a customer-focused strategic plan, align agency
      programs and activities with concrete missions and goals, and prepare and report on
      annual performance plans. For this material loss review, we did not assess the strengths
      and weaknesses of DSC’s annual performance plan in meeting the requirements of the
      Results Act because such an assessment is not part of the audit objectives. DSC’s
      compliance with the Results Act is reviewed in program audits of DSC operations.
      Regarding compliance with laws and regulations, we performed tests to determine
      whether the FDIC had complied with provisions of PCA and limited tests to determine
      compliance with certain aspects of the FDI Act. The results of our tests were discussed,
      where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
      related to our objectives in the course of evaluating audit evidence.




                                                    28
                                                                                   APPENDIX 2
                                GLOSSARY OF TERMS


      Term                                              Definition
Adversely           Assets subject to criticism and/or comment in an examination report.
Classified Assets   Adversely classified assets are allocated on the basis of risk (lowest to highest)
                    into three categories: Substandard, Doubtful, and Loss.

Allowance for       Federally insured depository institutions must maintain an ALLL that is
Loan and Lease      adequate to absorb the estimated loan losses associated with the loan and lease
Losses (ALLL)       portfolio (including all binding commitments to lend). To the extent not
                    provided for in a separate liability account, the ALLL should also be sufficient
                    to absorb estimated loan losses associated with off-balance sheet loan
                    instruments such as standby letters of loan.

Cease and Desist    A C&D is a formal enforcement action issued by a financial institution
Order (C&D)         regulator to a bank or affiliated party to stop an unsafe or unsound practice or a
                    violation of laws and regulations. A C&D may be terminated when the bank’s
                    condition has significantly improved and the action is no longer needed or the
                    bank has materially complied with its terms.

Concentration       A concentration is a significantly large volume of economically related assets
                    that an institution has advanced or committed to a certain industry, person,
                    entity, or affiliated group. These assets may, in the aggregate, present a
                    substantial risk to the safety and soundness of the institution.

Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the DIF. Part 325, subpart B,
(PCA)               of the FDIC Rules and Regulations, 12 Code of Federal Regulations, section
                    325.101, et. seq., implements section 38, Prompt Corrective Action, of the FDI
                    Act, 12 United States Code section 1831o, by establishing a framework for
                    taking prompt supervisory actions against insured nonmember banks that are
                    less than adequately capitalized. The following terms are used to describe
                    capital adequacy: (1) Well Capitalized, (2) Adequately Capitalized,
                    (3) Undercapitalized, (4) Significantly Undercapitalized, and (5) Critically
                    Undercapitalized.

                    A PCA Directive is a formal enforcement action seeking corrective action of
                    compliance with the PCA statute with respect to an institution that falls within
                    any of the three categories of undercapitalized institutions.

Uniform Bank        The UBPR is an individual analysis of financial institution financial data and
Performance         ratios that includes extensive comparisons to peer group performance. The
Report (UBPR)       Federal Financial Institutions Examination Council produces the report
                    quarterly, from banks’ Call Report data, for use by banking supervisors,
                    bankers, and the general public.




                                              29
                                                                                         APPENDIX 3
                     CHRONOLOGY OF SIGNIFICANT EVENTS



       Date                                       Chronology of Significant Events

January 28, 2002     The institution was established as the First Bank of Henry County, and deposit insurance
                     became effective.
July 15, 2002        The GDBF began the first examination of the institution. Ratings: 1-1-2-3-1-3/2
December 2, 2002     The FDIC began the second examination of the institution. Ratings: 2-2-2-3-2-2/2
October 6, 2003      The GDBF began the third examination of the institution. Ratings: 2-2-2-2-2-2/2
September 28, 2004   The FDIC began the fourth examination of the institution. Ratings: 1-1-2-1-2-2/2
February 1, 2005     The single-bank holding company, FirstBank Financial Services, Inc. was formed.
January 30, 2006     The institution opened the Stockbridge Branch Office.
May 30, 2006         The GDBF began the fifth examination of the institution. Ratings: 2-1-2-1-2-2/2
October 2, 2006      The institution opened the McDonough Branch Office.
January 1, 2007      The institution changed its name to FirstBank Financial Services.
July 30, 2007        FirstBank opened the Morrow Branch Office.
December 10, 2007    The FDIC began the sixth examination of FirstBank. The ROE for this examination was
                     updated to include the results of the March 2008 visitation. Ratings: 4-4-4-4-4-3/4
June 6, 2008         FirstBank notified the FDIC of a BBR adopted to address weaknesses and deficiencies
                     identified in the FDIC’s December 2007 examination.
June 12, 2008        The FDIC notified FirstBank that it had been added to DSC’s Problem Bank List.
June 23, 2008        The Federal Reserve Bank of Atlanta notified FirstBank’s holding company of the bank’s
                     unsatisfactory condition.
June 30, 2008        FirstBank became Adequately Capitalized for PCA purposes.
August 28, 2008      The FDIC received FirstBank’s brokered deposit waiver request. The bank withdrew the
                     request on December 11, 2008.
October 23, 2008     The FDIC and GDBR jointly issued a C&D.
November 17, 2008    The FDIC conducted a visitation of the institution. Ratings: 5-5-4-5-5-4/5
November 30, 2008    FirstBank was Significantly Undercapitalized for PCA purposes.
January 13, 2009     The FDIC issued a PCA notification letter to FirstBank’s BOD.
February 6, 2009     The GDBF closed the institution and named the FDIC as receiver.




                                                 30
                                                                                                                   APPENDIX         4
                               CORPORATION COMMENTS
 I ¡ ;ari iil ¡ i" UA;:¡.             ¡¡¡¡ill                    IIh., =                       hr ii                          ¡f.




FDII
Federal Deposit Insurance Corporation
 550 17h Street NW, Washington, DC 2029-999                      Division of Supervision and Consumer Protection




                                                                  September 1. 2009

TO: Russell A- Rau
                 Assistant Inspector General for Audits

FROM: Sandra L. Thompson
                 Director

SUBJECT: Draft Audit Report Entitled, Material Loss Review of FirstBank Financial Services,
           McDonough, Georgia (Assignment No_ 2009-022)

Pursuant to Section 38(k) of    the Federal Deposit Insurance Act (FDI Act), the Federal Deposit
Insurance Corporation's Offce of Inspector General (OIG) conducted a Material Loss Review of
FirstBank Financial Services (FirstBank), which failed on February 6, 2009. This memorandum is
the response of the Division of    Supervision and Consumer Protection (DSC) to the OIG's Draft
Audit Report (Report) received on August 17,2009.

The OIG found that FirstBank failed primarly due to management's pursuit of rapid growth in
Commercial Real Estate (CRE) and Acquisition, Development, and Construction (ADC) loans.
This growth was concentrated in suburban Atlanta, Georgia, and funded with higher cost, volatile
wholesale sources. This business strategy, when coupled with the economic downturn that
accelerated in 2007, resulted in loan losses depleting capital and earnings and impairing liquidity to
the magnitude of which the institution was unable to recover and ultimately failed.

The Report concludes that       the FDIC. in conjunction with the Georgia Deparment of Banking and
Finance (GDBF), provided ongoing supervision of             FirstBank and identified key concerns for
attention by bank management, including problems that            led to the bank's failure. Supervisory
examinations and visitations in 2003, 2004, and 2006 discussed the risks associated with the
elevated concentration in CREIADC lending. Although these examinations noted overall adequate
oversight of concentrations and generally sound conditions, the combination of an economic
downturn and the risk associated with FirstBan's lending and funding strategies \cd to formal
enforcement action following the December 2007 examination. The OIG notes, and DSC
acknowledges, that FirstBank's practice of          highly concentrated ADC lending warranted earlier
intervention, before its financial condition deteriorated. DSC has provided further guidance to
enhance its supervision of institutions with concentrated CRE/ ADC lending and volatile non-core
funding.

Thank you for the opportunity to review and comment on the Report




                                                  31
                                                                          APPENDIX 5
                 ACRONYMS USED IN THE REPORT



 Acronym                                 Definition
ADC        Acquisition, Development, and Construction
ALLL       Allowance for Loan and Lease Losses
ALM        Asset Liability Management
ARO        Atlanta Regional Office
BBR        Bank Board Resolution
BOD        Board of Directors
C&D        Cease and Desist Order
CAMELS     Capital, Asset Quality, Management, Earnings, Liquidity, and
           Sensitivity to Market Risk
CLP        Contingency Liquidity Plan
CRE        Commercial Real Estate
DIF        Deposit Insurance Fund
DRR        Division of Resolutions and Receiverships
DSC        Division of Supervision and Consumer Protection
FDI        Federal Deposit Insurance
FHLB       Federal Home Loan Bank
FIL        Financial Institution Letter
GDBF       Georgia Department of Banking and Finance
OIG        Office of Inspector General
PCA        Prompt Corrective Action
PLLL       Provision for Loan and Lease Losses
ROE        Report of Examination
TARP       Troubled Asset Relief Program
UBPR       Uniform Bank Performance Report
UFIRS      Uniform Financial Institutions Rating System




                                    32
